No. 19-438
In the Supreme Court of the United
__________________

States

CLEMENTE AVELINO PEREIDA,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.
__________________
On Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

__________________

BRIEF OF FORMER UNITED STATES
IMMIGRATION JUDGES AND MEMBERS OF
THE BOARD OF IMMIGRATION APPEALS AS
AMICI CURIAE IN SUPPORT OF PETITIONER
__________________
David G. Keyko
Counsel of Record
Robert L. Sills
Matthew F. Putorti
Stephanie S. Gomez
Jihyun Park
PILLSBURY WINTHROP SHAW
PITTMAN LLP
31 West 52nd Street
New York, NY 10019-6131
(212) 858-1604
david.keyko@pillsburylaw.com
Counsel for Amici Curiae
February 4, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 6
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
I.

Immigration Courts and the Use of the
Categorical Approach . . . . . . . . . . . . . . . . . . . 8
A. Initiation of Removal Proceedings. . . . . . 10
B. The Master Calendar Hearing . . . . . . . . 10
C. Consideration of Criminal Convictions
and the Categorical Approach . . . . . . . . . 12
D. The Merits Hearing . . . . . . . . . . . . . . . . . 16

II.

Administrability of the Categorical
Approach . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
A. Benefits of the Categorical Approach . . . 18
B. Mr. Pereida’s Position Is Consistent with
the Categorical Approach and an
Administrable Means of Construing an
Inconclusive Conviction Record . . . . . . . . 21
1. Mr. Pereida’s Position Is Consistent with
the Categorical Approach . . . . . . . . . . . . 21
2. Mr.
Pereida’s
Position
Is
an
Administrable Means of Construing an
Inconclusive Conviction Record . . . . . . . . 22

ii
C. The Government’s Position Will Impede
Immigration Judges’ Application of the
Categorical Approach. . . . . . . . . . . . . . . . 24
III.

The Government’s Interpretation of the
Modified Categorical Approach Would
Change Essential Functions of the
Immigration Courts. . . . . . . . . . . . . . . . . . . . 28
A. The Government’s Interpretation Would
Deprive Immigration Judges of the
Authority to Exercise Discretion . . . . . . . 29
B. Eligibility for Cancellation of Removal
Has a Built-In Mechanism for
Immigration Judges to Reassess a
Noncitizen’s Criminal Conduct . . . . . . . . 32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

iii
TABLE OF AUTHORITIES
CASES
Bohner v. Burwell,
Civ. A. No. 15-4088, 2016 U.S. Dist. LEXIS
167590 (E.D. Pa. Dec. 2, 2016) . . . . . . . . . . . . . . 19
Carachuri-Rosendo v. Holder,
560 U.S. 563 (2010). . . . . . . . . . . . . . . . . . . . . . . 13
Cisneros-Perez v. Gonzales,
451 F.3d 1053 (9th Cir. 2006). . . . . . . . . . . . . . . 15
Descamps v. United States,
570 U.S. 254 (2013). . . . . . . . . . . . . . . . . . . . 13, 14
Fong Yue Ting v. United States,
149 U.S. 698 (1893). . . . . . . . . . . . . . . . . . . . . . . . 9
Garcia-Morales v. Barr,
__ F. App’x __ (10th Cir. 2019) . . . . . . . . . . . . . . 25
Gertsenshteyn v. U.S. Dep’t of Justice,
544 F.3d 137 (2d Cir. 2008) . . . . . . . . . . . . . . . . 22
INS v. St. Cyr,
533 U.S. 289 (2001). . . . . . . . . . . . . . . . . . . . . . . 30
In re Pichardo-Sufren,
21 I. & N. 330 (BIA 1996) . . . . . . . . . . . . . . . . . . 23
In re Sotelo-Sotelo,
23 I. & N. Dec. 201 (BIA 2001) . . . . . . . . . . . . . . 30
Jay v. Boyd,
351 U.S. 345 (1956). . . . . . . . . . . . . . . . . . . . 29, 30

iv
Jean-Louis v. Att’y Gen. of U.S.,
582 F.3d 462 (3d Cir. 2009) . . . . . . . . . . . . . . . . 22
Johnson v. United States,
559 U.S. 133 (2010). . . . . . . . . . . . . . . . . . . . . . . 13
Li Hua Lin v. U.S. Dep’t of Justice,
453 F.3d 99 (2d Cir. 2006) . . . . . . . . . . . . . . . . . 16
Marinelarena v. Barr,
930 F.3d 1039 (9th Cir. 2019). . . . . . . . . . . . . . . 25
Mathis v. United States,
136 S. Ct. 2243 (2016). . . . . . . . . 14, 21, 23, 24, 25
Matter of C-V-T-,
22 I. & N. Dec. 7 (BIA 1998). . . . . . . 17, 18, 28, 30
Matter of Edwards,
10 I. & N. Dec. 506 (BIA 1964) . . . . . . . . . . . . . . 16
Matter of Marin,
16 I. & N. Dec. 581 (BIA 1978) . . . . . . . . . . . 16, 17
Matter of S-O-G & F-D-B,
27 I. & N. Dec. 462 (A.G. 2018) . . . . . . . . . . . . . . 9
Mellouli v. Lynch,
135 S. Ct. 1980 (2015). . . . . . . . . . . . . . . . . . . . . 21
Michel v. INS,
206 F.3d 253 (2d Cir. 2000) . . . . . . . . . . . . . . . . 20
Moncrieffe v. Holder,
133 S. Ct. 1678 (2013). . . . . . . . . . . . 13, 14, 15, 20
Padilla v. Kentucky,
559 U.S. 356 (2010). . . . . . . . . . . . . . . . . . . . 25, 26

v
Perez v. Barr,
927 F.3d 17 (1st Cir. 2019) . . . . . . . . . . . . . . 32, 33
Sauceda v. Lynch,
819 F.3d 526 (2016). . . . . . . . . . . . . . . . . . . . 15, 19
Shepard v. United States,
544 U.S. 13 (2005). . . . . . . . . . . . . . . . . . . . . 13, 14
Taylor v. United States,
495 U.S. 575 (1990). . . . . . . . . . . . . . . . . . . . . . . 13
Tokatly v. Ashcroft,
371 F.3d 613 (9th Cir. 2004). . . . . . . . . . . . . 22, 23
United States v. Corona-Sanchez,
291 F.3d 1201 (9th Cir. 2002). . . . . . . . . . . . . . . 16
United States v. Kroll,
918 F.3d 47 (2d Cir. 2019) . . . . . . . . . . . . . . . . . 20
United States v. Martinez-Ortega,
482 F. App’x. 96 (6th Cir. 2012) . . . . . . . . . . . . . 20
United States ex rel. Accardi v. Shaughnessy,
347 U.S. 260 (1954). . . . . . . . . . . . . . . . . . . . . . . 29
United States ex rel. Mylius v. Uhl,
210 F. 860 (2d Cir. 1914) . . . . . . . . . . . . 13, 22, 23
STATUTES AND REGULATIONS
8 U.S.C. § 1101(a)(48) . . . . . . . . . . . . . . . . . . . . . . . 12
8 U.S.C. § 1101(b)(4) . . . . . . . . . . . . . . . . . . . . . . . . 28
8 U.S.C. § 1229 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
8 U.S.C. § 1229(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . 10

vi
8 U.S.C. § 1229a(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . 8
8 U.S.C. § 1229a(b). . . . . . . . . . . . . . . . . . . . . . . . . . 11
8 U.S.C. § 1229a(b)(1) . . . . . . . . . . . . . . . . . . . . . . . 17
8 U.S.C. § 1229a(c)(3)(B) . . . . . . . . . . . . . . . . . . . . . 11
8 U.S.C. § 1229a(c)(4)(C) . . . . . . . . . . . . . . . . . . 18, 30
8 U.S.C. § 1229b . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
8 U.S.C. § 1229b(b)(1)(B) . . . . . . . . . . . . . . . . . . . . . 32
8 U.S.C. § 1252(a)(2)(B)(i) . . . . . . . . . . . . . . . . . . . . 33
8 U.S.C. § 1252(a)(2)(D) . . . . . . . . . . . . . . . . . . . . . . 33
8 C.F.R. § 239.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
8 C.F.R. § 1003.10(a) . . . . . . . . . . . . . . . . . . . . . . . . . 8
8 C.F.R. § 1003.10(b) . . . . . . . . . . . . . . . . . . . . . 17, 29
8 C.F.R. § 1003.14(a) . . . . . . . . . . . . . . . . . . . . . . . . 10
8 C.F.R. § 1240.10 . . . . . . . . . . . . . . . . . . . . . . . . . . 11
OTHER AUTHORITIES
Average Time Pending Cases Have Been Waiting in
Immigration Courts as of December 2019, TRAC
Reports, Inc., https://trac.syr.edu/phptools/immi
gration/court_backlog/apprep_backlog_avgdays
.php . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Alina Das, The Immigration Penalties of Criminal
Convictions: Resurrecting Categorical Analysis
in Immigration Law, 86 N.Y.U. L. REV. 1669
(2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vii
Ingrid Eagly & Steven Shafer, Access to Counsel in
Immigration Court, American Immigration
Council (Sept. 28, 2016), https://www.american
immigrationcouncil.org/research/access-counselimmigration-court. . . . . . . . . . . . . . . . . . . . . . . . 10
Laura Jean Eichten, A Felony, I Presume? 21 USC
§ 841(b)’s Mitigating Provision and the
Categorical Approach in Immigration Proceedings,
79 U. CHI. L. REV. 1093 (2012) . . . . . . . . . 23, 27, 28
Executive Office for Immigration Review to Swear
in 28 Immigration Judges, Bringing Judge Corps
to Highest Level in History, THE UNITED STATES
DEPARTMENT OF JUSTICE (Dec. 20, 2019),
https://www.justice.gov/opa/pr/executive-officeimmigration-review-swear-28-immigrationjudges-bringing-judge-corps-highest . . . . . . . . . . 9
Immigration Court Backlog Through December
2019, TRAC Reports, Inc., https://trac.syr.edu/
phptools/immigration/court_backlog/. . . . . . . . . . 9
Amit Jain & Phillip D. Warren, An Ode to the
Categorical Approach, 67 UCLA L. REV.
DISCOURSE 132 (2019) . . . . . . . . . . . . . . . . . . . . . 23
Daniel Kanstroom, Surrounding the Hole in the
Doughnut: Discretion and Deference in U.S.
Immigration Law, 71 TUL. L. REV. 703 (1997) . 29
Jennifer L. Koh, Crimmigration Beyond the
Headlines: The Board of Immigration Appeals’
Quiet Expansion of the Meaning of Moral
Turpitude, 71 STAN. L. REV. ONLINE 267 (2019)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 26

viii
Jennifer L. Koh, The Whole Better than the Sum: A
Case for the Categorical Approach to Determining
the Immigration Consequences of Crime, 26 GEO.
IMMIGR. L. J. 257 (2012) . . . . . . . . . . 20, 21, 23, 27
Alexander G. Peerman, Parsing Prior Convictions:
Mathis v. United States and the Means-Element
Distinction, 118 COLUM. L. REV. 171 (2017) . 23, 24
Sarah M. Rich, Escaping Immigration Law’s
Cancellation Catch: Why an Inconclusive Record
of Conviction Satisfies the Preponderance of the
Evidence Standard in Cancellation of Removal,
SSRN (July 18, 2013), http://dx.doi.org/10.2139/
ssrn.2295784 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Abraham D. Sofaer, Judicial Control of Informal
Discretionary Adjudication and Enforcement, 72
COLUM. L. REV. 1293 (1972) . . . . . . . . . . . . . . . . 30

1
INTEREST OF AMICI CURIAE1
Amici curiae, former United States Immigration
Judges and Members of the Board of Immigration
Appeals (“BIA”) who have collectively presided over
thousands of immigration cases and appeals, submit
this brief in support of Mr. Pereida’s position. Because
they have devoted their legal careers to the fair and
efficient administration of immigration law, and many
continue to work in the field, amici have a continuing
interest in the operation of the immigration system.
They are concerned that the Government’s position is
at odds with the proper application of the categorial
approach, will lead to inconsistent and potentially
unjust outcomes, and will deprive immigration judges
of the ability to exercise discretion on the very issues
on which they are expert: whether a noncitizen is
worthy of an act of executive grace. Accordingly, amici
submit this brief to provide the Court with the practical
perspective of those who have sat on the bench about
how removal proceedings operate and how the
Government’s position would be neither administrable
nor fair.
Steven Abrams was an Immigration Judge (“IJ”)
in New York City from 1997 to 2013. Before his
appointment to the bench, he held positions of Special
Assistant U.S. Attorney for the Eastern District of New
York and Immigration and Naturalization Service
1

All parties have consented to the filing of this brief. See Sup. Ct.
R. 37.3(a). No counsel for either party authored this brief in whole
or in part, and no person or entity other than the amici or their
counsel made a monetary contribution to the brief’s preparation or
submission.

2
(“INS”) District Counsel in the New York District
Office.
Terry A. Bain was an IJ in New York City from
1994 to 2019.
Sarah M. Burr was an IJ in New York City from
1994 to 2006. In 2006, she was appointed Assistant
Chief Immigration Judge for the New York, Fishkill,
Ulster, Bedford Hills, and Varick Street Immigration
Courts, and served in that capacity until 2011, when
she returned to the bench full-time until she retired in
2012.
Teofilo Chapa was an IJ in Miami, Florida from
1995 to 2018.
Jeffrey S. Chase was an IJ in New York City from
1995 to 2007, and an attorney advisor and senior legal
advisor at the Executive Office for Immigration Review
(“EOIR”) of the BIA from 2007 to 2017.
George T. Chew, after serving as an INS trial
attorney, was an IJ in New York from 1995 to 2017.
Joan Churchill was an IJ in Washington, DC and
Arlington, Virginia from 1980 to 2005, which included
five terms as a temporary Member of the BIA. She
served as National President of the National
Association of Women Judges from 2012 to 2013.
Bruce J. Einhorn was an IJ in Los Angeles,
California from 1990 to 2007.

3
Cecelia M. Espenoza was a Member of the EOIR
BIA from 2000 to 2003 and served in the Office of the
General Counsel from 2003 to 2017, where she was
Senior Associate General Counsel, Privacy Officer,
Records Officer and Senior Freedom of Information Act
Counsel.
Noel Anne Ferris was an IJ in New York from
1994 to 2013 and an attorney advisor to the BIA from
2013 to 2016. Previously, she served as a Special
Assistant U.S. Attorney in the Southern District of
New York from 1985 to 1990 and as Chief of the
Immigration Unit from 1987 to 1990.
James R. Fujimoto was an IJ in Chicago, Illinois
from 1990 to 2019.
Jennie L. Giambastiani was an IJ in Chicago,
Illinois from 2002 to 2019.
John F. Gossart, Jr. was an IJ in Baltimore,
Maryland from 1982 to 2013, and is the former
president of the National Association of Immigration
Judges. From 1975 to 1982, he held various positions
with the INS, including general attorney,
naturalization attorney, trial attorney, and Deputy
Assistant Commissioner for Naturalization. He is the
co-author of the National Immigration Court Practice
Manual, which is used by practitioners across the
United States.
Paul Grussendorf was an IJ in Philadelphia,
Pennsylvania and San Francisco, California from 1997
to 2004.

4
Miriam Hayward was an IJ in San Francisco,
California from 1997 to 2018.
Charles M. Honeyman was an IJ in Philadelphia,
Pennsylvania and New York from 1995 to 2020.
Rebecca Jamil was an IJ in San Francisco,
California from 2016 to 2018, before which she served
as Assistant Chief Counsel for U.S. Immigration and
Customs Enforcement in San Francisco beginning in
2011.
William P. Joyce was an IJ in Boston,
Massachusetts from 1996 to 2002, before which he
served as legal counsel to the Chief Immigration Judge
and as Associate General Counsel for enforcement for
INS.
Carol King was an IJ in San Francisco, California
from 1995 to 2017, and a temporary Member of the
EOIR BIA for six months in 2010 and 2011.
Elizabeth A. Lamb was an IJ in New York City
from 1995 to 2018.
Margaret McManus was an IJ in New York City
from 1991 to 2018.
Charles Pazar was an IJ in Memphis, Tennessee
from 1998 to 2017, before which he was Senior
Litigation Counsel in the Department of Justice Office
of Immigration Litigation, and in the INS Office of
General Counsel.
Laura Ramirez was an IJ in San Francisco,
California from 1997 to 2018.

5
John W. Richardson was an IJ in Phoenix,
Arizona from 1990 to 2018.
Lory D. Rosenberg was a Member of the EOIR
BIA from 1995 to 2002. She is the author of
Immigration Law and Crimes.
Susan Roy was an IJ in Newark, New Jersey from
2008 to 2010, before which she was an Assistant Chief
Counsel, National Security Attorney, and Senior
Attorney for the U.S. Department of Homeland
Security (“DHS”) Office of Chief Counsel in Newark.
She is the Chair-Elect of the New Jersey State Bar
Association Immigration Law Section. She serves on
the Executive Committee of the New Jersey Chapter of
the American Immigration Lawyers Association
(“AILA”) as Secretary, and is the New Jersey AILA
Chapter Liaison to EOIR. She also serves on the AILANational 2019 Convention Due Process Committee.
Paul W. Schmidt was an IJ in Arlington, Virginia
from 2003 to 2016, before which he was Chairman of
the EOIR BIA from 1995 to 2001, and a Member from
2001 to 2003. He was Deputy General Counsel of the
INS from 1978 to 1987 and Acting General Counsel
from 1979 to 1981 and again from 1986 to 1987. He was
a founding member of the International Association of
Refugee Law Judges, and presently is its Americas Vice
President.
Ilyce S. Shugall was an IJ in San Francisco,
California from 2017 to 2019.
Denise Slavin was an IJ in Baltimore, Maryland
and Miami, Florida from 1995 to 2019.

6
Andrea Hawkins Sloan was an IJ in Portland,
Oregon from 2010 to 2017.
William Van Wyke was an IJ in York,
Pennsylvania and New York City from 1995 to 2015.
Polly A. Webber was an IJ in San Francisco,
California from 1995 to 2016, with details in Tacoma,
Port Isabel, Boise, Houston, Atlanta, Philadelphia, and
Orlando Immigration Courts. She was National
President of AILA from 1989 to 1990, and a National
AILA Officer from 1985 to 1991.
SUMMARY OF ARGUMENT
This brief presents the view of former IJs and BIA
members on an issue of vital importance to the
functioning of our immigration system: how requiring
IJs to assess inconclusive conviction records to
determine whether a prior criminal conviction
disqualifies a noncitizen from applying for relief from
removal is contrary to longstanding application of the
categorical approach, will create further delays in an
already overburdened immigration system, and will
deprive IJs of their discretionary power.
Mr. Pereida is correct that inconclusive state
conviction records cannot satisfy the categorical
approach’s requirement that the state conviction
necessarily establishes federal predicate offenses.
Affirming this interpretation of the categorical
approach will promote the expeditious and fair
adjudication of the hundreds of thousands of cases
pending in immigration courts.

7
The Government incorrectly asserts that when the
conviction record is inconclusive as to whether a
conviction was for a disqualifying offense, a noncitizen
does not carry his or her burden of proof to show
statutory eligibility for relief. That argument is faulty
because it would require IJs to conduct an inquiry,
which the Government wrongly argues is governed by
the Immigration and Nationality Act’s (“INA”) burden
of proof allocation, focusing on the facts underlying the
conviction. Moreover, rather than aid IJs in resolving
cases, the Government’s position would impede the
application of the modified categorical approach by
forcing IJs to delay the proceedings. IJs will be forced
to wait for the noncitizen to obtain and present
criminal records that may not even exist or be
obtainable and then examine those criminal records to
make factual determinations the categorical approach
is meant to avoid. The Government’s novel gloss on the
modified categorical approach is antithetical to the
analysis IJs have employed for decades and would
preclude the exercise of discretion essential to the
functioning of immigration courts.
Contrary to the Government’s contention, the
modified categorical approach does not involve a
separate factual inquiry. The requisite analysis is a
legal one: whether the conviction rests upon nothing
more than the minimum conduct necessary for a
conviction. Deviating from the categorical approach’s
sole focus on a direct and uncomplicated comparison
between state and federal offenses, as the Government
would require, threatens to disturb the uniformity of
outcomes in similar circumstances that the categorical
approach safeguards. Mr. Pereida’s interpretation of

8
the categorical approach would avoid this undesirable
outcome.
For the reasons explained in the balance of this
brief, Mr. Pereida’s solution is the correct one. Section
I provides a real-world overview of how removal
proceedings operate, focusing on the typical sequence
of immigration court proceedings, how criminal records
are introduced and considered, and the limited ability
of noncitizens (many of whom are detained during such
proceedings) to procure relevant records. Section II
discusses the administrability of the categorical
approach and its modified variant, highlighting the
benefits of the approach, how Mr. Pereida’s position is
in harmony with the way in which IJs apply the
approach to reach just results, and how the
Government’s interpretation would impede the
workings of immigration courts. Finally, Section III
explains how the Government’s position would curtail
IJs’ discretionary power to analyze the facts of each
case to reach a just result.
ARGUMENT
I.

Immigration Courts and the Use of the
Categorical Approach

Immigration courts are the exclusive venue for
proceedings to remove a noncitizen from the United
States.
8 U.S.C. §§ 1229a(a)(1) and (3).
The
Department of Justice’s EOIR operates sixty-three
immigration courts. The IJs who preside in those
courts are appointed by the Attorney General. See 8
C.F.R. § 1003.10(a). Through December 2019, there

9
were approximately 465 authorized IJs and 1,089,696
pending immigration cases––over 2,300 cases on
average for each IJ (assuming all authorized IJs are
hearing cases, which is likely not the case).2
The INA vests DHS with the exclusive authority to
commence removal proceedings. See Matter of S-O-G
& F-D-B, 27 I. & N. Dec. 462, 465 (A.G. 2018). For over
a century, this Court has recognized that removal is
“among the severest of punishments” and has stressed
the importance of protecting the due process rights of
those who face removal. See, e.g., Fong Yue Ting v.
United States, 149 U.S. 698, 740-41 (1893) (“Every one
knows that to be forcibly taken away from home, and
family, and friends, and business, and property, and
sent across the ocean to a distant land, is punishment,
and that oftentimes [sic] most severe and cruel”).
Nonetheless, indigent noncitizens in removal
proceedings do not have a constitutional or statutory
right to counsel, and over sixty percent of noncitizens
(many of whom are not proficient in English) proceed
2

Executive Office for Immigration Review to Swear in 28
Immigration Judges, Bringing Judge Corps to Highest Level in
History, THE UNITED STATES DEPARTMENT OF JUSTICE (Dec. 20,
2019), https://www.justice.gov/opa/pr/executive-office-immigrationreview-swear-28-immigration-judges-bringing-judge-corps-highest;
Immigration Court Backlog Through December 2019, TRAC
Reports, Inc., https://trac.syr.edu/phptools/immigration/court_back
log/. TRAC Reports, Inc. (“TRAC”) is a nonpartisan, nonprofit data
research center affiliated with the Newhouse School of Public
Communications and the Whitman School of Management, both at
Syracuse University. TRAC’s statistics also show that there is an
upward trend in the number of deportation proceedings filed in
immigration court, with 68,245 new deportation proceedings filed
since October 2019 alone.

10
on a pro se basis, opposed by experienced DHS
attorneys.3
A. Initiation of Removal Proceedings
DHS initiates removal proceedings by issuing,
serving, and filing with the IJ a Notice to Appear
(“Notice”). See, e.g., INA § 239; 8 U.S.C. § 1229; 8
C.F.R. § 239.1; 8 C.F.R. § 1003.14(a). The Notice
specifies the nature of the proceedings against the
noncitizen. Generally, there are three categories of
noncitizens who may receive a Notice: (1) an “arriving
alien” who has been stopped at a port of entry prior to
admittance, (2) a noncitizen who is admitted to the
United States by the government but has now been
deemed deportable for reasons identified in the Notice,
and (3) a noncitizen present in the United States who
has not been admitted or paroled by the government.
The Notice must inform the noncitizen of the alleged
grounds for removal, the noncitizen’s right to hire an
attorney, the time and place at which the initial Master
Calendar Hearing (“MCH”) will be held, and the
consequences for failing to appear at the MCH. 8
U.S.C. § 1229(a)(1).
B. The Master Calendar Hearing
A noncitizen in a removal proceeding first appears
before an IJ at the MCH, which is similar in style to a
criminal arraignment. At an MCH, an IJ often hears
in quick succession forty to sixty individual cases,
3

Ingrid Eagly & Steven Shafer, Access to Counsel in Immigration
Court, American Immigration Council (Sept. 28, 2016),
https://www.americanimmigrationcouncil.org/research/accesscounsel-immigration-court.

11
frequently processing cases in five minutes or less. The
purpose of the MCH is to determine if there are any
immediate and definitive grounds for removal—and, if
not, to advise the noncitizen of his or her rights
regarding the removal proceedings, explain the charges
and factual allegations in the Notice, set filing
deadlines, and identify and narrow the factual and
legal issues regarding DHS’s requested removal.
Failure to attend the first MCH results in the entry of
an automatic order of removal against the noncitizen.
During the MCH, the IJ may: (1) receive pleadings,
(2) set deadlines for filing applications for relief and
submitting briefs, motions, prehearing statements,
exhibits, witness lists, and other documents, and
(3) schedule a merits hearing to adjudicate contested
matters or applications for relief. See 8 U.S.C.
1229a(b); 8 C.F.R. § 1240.10.
At the MCH, the noncitizen must admit or deny the
charges and factual allegations in the Notice, either
conceding or contesting the grounds on which DHS
asserts he or she is removable. The IJ will then
request that the Government disclose any record
relevant to the factual and legal issues, including the
noncitizen’s eligibility for relief from removal. The
Government will later file all documents that support
the charges and factual allegations contained in the
Notice (e.g., copy of the statute under which the
noncitizen was convicted, indictment, and rap sheet).
8 U.S.C. § 1229a(c)(3)(B).
At the end of the MCH, the IJ schedules a merits
hearing (“Merits Hearing”) if the noncitizen contests
the Government’s charges of removability or has

12
pleaded one or more of the statutory bases for relief
from removal. Non-detained noncitizens can expect to
wait an average of two years for their Merits Hearing
because of the backlog of cases.4 If the noncitizen does
not have any basis to challenge removability or assert
statutory eligibility for relief, then DHS may move to
pretermit (that is, summarily grant its request prior to
a Merits Hearing) by written or oral motion.
C. Consideration of Criminal Convictions
and the Categorical Approach
During the removal proceedings, if the noncitizen
contests the Government’s charges of removability, IJs
consider any prior criminal convictions of the
noncitizen. In order to remove a noncitizen or to find
the noncitizen ineligible for relief based on criminal
grounds, the noncitizen must have been convicted of a
disqualifying offense.5
Where the conviction is a state offense, IJs employ
the “categorical approach” to determine whether the
statutory definition of the state criminal conviction
4

See Average Time Pending Cases Have Been Waiting in
Immigration Courts as of December 2019, TRAC Reports, Inc.,
https://trac.syr.edu/phptools/immigration/court_backlog/apprep_
backlog_avgdays.php.

5

Under the INA, “with respect to an alien,” “conviction” means: a
formal judgment of guilt of the noncitizen entered by a court, or, if
adjudication of guilt has been withheld, where: (1) a judge or jury
has found the noncitizen guilty or the noncitizen has entered a
plea of guilty or nolo contendere or has admitted sufficient facts to
warrant a finding of guilt; and (2) the judge has ordered some form
of punishment, penalty, or restraint on the noncitizen’s liberty to
be imposed. INA § 101(a)(48); 8 U.S.C. § 1101(a)(48).

13
matches the corresponding federal offense for which a
noncitizen may be removed or found ineligible for
relief.6 In the immigration context, the categorical
approach has been used in both removal and relieffrom-removal phases.
See Carachuri-Rosendo v.
Holder, 560 U.S. 563 (2010); Moncrieffe, 133 S. Ct. at
1685 n.4.
The categorical approach mandates that an IJ
determine whether a noncitizen’s prior criminal
conviction renders him or her removable or ineligible to
seek relief under the INA by examining whether the
elements of the state crime at issue categorically match
the elements of the corresponding federal offense.
Taylor, 495 U.S. at 600-602. A state statute is a
categorical match with a federal offense only if the
statute’s elements are the same as, or narrower than,
those of the federal offense. Descamps, 570 U.S. at 257.
In making that determination, an IJ must presume
that the conviction rested upon nothing more than the
least of the acts criminalized. Moncrieffe, 133 S. Ct. at
1680-81; Johnson v. United States, 559 U.S. 133, 137
(2010). Accordingly, this inquiry focuses solely on
reviewing the legal question of whether the two
offenses match—not on whether the facts of the
noncitizen’s conduct leading to the conviction fall under
6

The historical roots of the categorical approach extend to the
Second Circuit’s decision in United States ex rel. Mylius v. Uhl, 210
F. 860 (2d Cir. 1914). Beginning in 1990, this Court issued a series
of landmark decisions addressing the categorical approach and its
modified variant. See, e.g., Taylor v. United States, 495 U.S. 575
(1990); Shepard v. United States, 544 U.S. 13 (2005); Descamps v.
United States, 570 U.S. 254 (2013); Moncrieffe v. Holder, 133 S. Ct.
1678 (2013). These cases form the bedrock for interpreting and
applying the categorical approach.

14
the federal definition. This Court’s chief impetus for
adopting the categorical approach was to give meaning
to Congress’s use of the word “conviction” in the INA,
rather than a phrase requiring a more fact-intensive
inquiry (like asking whether a noncitizen “committed”
a crime); the categorial approach also promotes
consistent, and thus predictable, outcomes under state
and federal law. See Moncrieffe, 133 S. Ct. at 1693
n.11.
If the state statute is both divisible and overbroad
(as compared to the federal offense), IJs employ the
“modified categorical approach,” which entails
examining the conviction record’s “extra-statutory”
documents to determine whether the record of
conviction established any precise statutory prong as
the basis for the conviction and, if so, whether the
conviction “necessarily” matches the equivalent of the
defined federal offense.7 Descamps, 570 U.S. at 262-63.
The documents an IJ may reference are limited and
principally include the charging document, the plea
agreement, and the transcript of the plea colloquy. See
Shepard, 544 U.S. at 16.
There are two distinct problems associated with this
limited set of documents. First, the nature of such
7

A state statute is divisible when it contains different crimes with
alternative elements. See Mathis v. United States, 136 S. Ct. 2243
(2016). When faced with an alternatively phrased state statute
judges should first “determine whether its listed items are
elements or means.” 136 S. Ct. at 2256. If the statute’s language
does not resolve the matter, judges may look to the conviction
record. Statutes found to contain alternative elements—not
means—are divisible and judges may then apply the modified
categorical approach.

15
records varies widely because different localities enter
judgments in different ways, the records maintained
vary from court to court, some court records may be
handwritten, and not all conviction records are kept for
long periods of time. Moreover, obtaining records of
criminal proceedings is often difficult or
impossible—particularly for a noncitizen who is
incarcerated or unrepresented (or both), or when the
records are old. See, e.g., Sauceda v. Lynch, 819 F.3d
526 (2016) (referencing extensive discussions between
noncitizen’s attorney and IJ regarding difficulty in
obtaining certain documents of the underlying
conviction record because the Maine Superior Court did
not maintain copies of such documents in misdemeanor
cases). Even when noncitizens are represented and not
detained, obtaining conviction records can be difficult.
For example, the administrative record of Sauceda
recounts how counsel for the noncitizen had his client
travel to court multiple times to obtain evidence the IJ
demanded, but those records “simply [did] not exist.”
A.R. at 13-14 (Resp’t’s Third Br. in Support of Appeal,
dated Dec. 12, 2013).
Ultimately, if the IJ cannot determine from an
ambiguous record for which crime the noncitizen was
“necessarily” convicted, then the conviction is not a
categorical match and cannot serve as a bar to relief.
That ends the inquiry into whether a criminal
conviction automatically renders the noncitizen
ineligible for relief, and the IJ need not conduct any
further examination on this specific point. Moncrieffe,
133 S. Ct. at 1686-87; see also Cisneros-Perez v.
Gonzales, 451 F.3d 1053, 1059 (9th Cir. 2006)
(“Inferences . . . are insufficient under the modified

16
categorical approach.”); United States v. CoronaSanchez, 291 F.3d 1201, 1211 (9th Cir. 2002)
(emphasizing that the modified categorical approach is
intended to determine whether the record
“unequivocally establishes that the defendant was
convicted of the generically defined crime.”). Of course,
the conviction may be considered in the Merits
Hearing.
D. The Merits Hearing
At the Merits Hearing, in addition to satisfying
statutory eligibility requirements, a noncitizen must
establish that he or she is potentially entitled to relief
from removal as a matter of the IJ’s discretion. The
Merits Hearing is an evidentiary hearing designed to
determine whether such relief is warranted. IJs assess
a noncitizen’s character, standing in his or her
community and family, history of behavior, and
rehabilitation, as part of balancing all the factors
weighing for and against removal. See Matter of
Edwards, 10 I. & N. Dec. 506 (BIA 1964); Matter of
Marin, 16 I. & N. Dec. 581, 585 (BIA 1978).
“Due process requires that an applicant receive a
full and fair [Merits] hearing which provides a
meaningful opportunity to be heard.” Li Hua Lin v.
U.S. Dep’t of Justice, 453 F.3d 99, 104–05 (2d Cir. 2006)
(internal citation and quotation omitted). These
hearings proceed in a trial-like fashion where both
parties make opening statements, present evidence,
examine witnesses (such as family members whose
livelihood depends on the noncitizen’s income,
colleagues who rely on the noncitizen’s contributions at
work, close friends who speak to the noncitizen’s

17
character, and neighbors who can vouch for the
noncitizen’s standing and influence in the community),
and offer closing statements. A typical Merits Hearing
lasts three to four hours.
The Merits Hearing is intended to be a probing,
personal inquiry, and “there is no[] inflexible standard
for determining who should be granted discretionary
relief, and each case must be judged on its own merits.”
Matter of C-V-T-, 22 I. & N. Dec. 7, 11 (BIA 1998). IJs
must balance “the adverse factors evidencing an alien’s
undesirability as a permanent resident with the social
and humane considerations presented [on] his behalf to
determine whether the granting of . . . relief appears in
the best interests of this country.” Matter of Marin, 16
I. & N. Dec. at 584.
The Attorney General, acting with authority
delegated from Congress, has entrusted IJs with
expansive authority to “exercise their independent
judgment and discretion and may take any action
consistent with their authorities under the Act and
regulations that is appropriate and necessary for the
disposition of such cases.” 8 C.F.R. § 1003.10(b). As a
result, IJs may “interrogate, examine and crossexamine the alien and any witnesses.” 8 U.S.C.
§ 1229a(b)(1). When it is a pro se noncitizen’s Merits
Hearing, IJs typically exercise that authority and
actively participate in the questioning of the noncitizen
and any witnesses.
IJs also make credibility
determinations based on such factors as “the demeanor,
candor, or responsiveness of the applicant or witness,
the inherent plausibility of the applicant’s or witness’s
account, the consistency between the applicant’s or

18
witness’s written and oral statements, . . . and any
inaccuracies or falsehoods in such statements.” 8
U.S.C. § 1229a(c)(4)(C).
After both sides have presented their cases, and
after assessing the record as a whole and weighing the
positive and negative considerations in the noncitizen’s
specific case, the IJ will determine whether “the
granting of . . . relief appears in the best interest of this
country.” Matter of C-V-T-, 22 I. & N. Dec. at 11
(internal citation omitted).
II.

Administrability of the Categorical
Approach

Mr. Pereida’s position that an inconclusive record of
conviction can never meet the categorical approach’s
requirement that the match be “necessarily”
established (i) accords with IJs’ longstanding
application of the categorical approach, and (ii) offers
an administrable means of handling inconclusive
conviction records that fosters judicial efficiency by
allowing IJs to proceed more swiftly to the merits of
relief petitions.
A. Benefits of the Categorical Approach
The categorical approach aids in efficient and fair
adjudication of the enormous number of pending
immigration cases in at least three ways.
First, the categorical approach is straightforward
and produces consistent results because it is premised
on a direct, uncomplicated comparison of the elements
of state statutes and corresponding federal offenses. In
much the same manner as two pieces of paper can be

19
put on top of each other to see whether they align, so do
IJs identify statutory matches with federal offenses
using the categorical approach. See Bohner v. Burwell,
Civ. A. No. 15-4088, 2016 U.S. Dist. LEXIS 167590, at
*28 (E.D. Pa. Dec. 2, 2016) (internal citations omitted)
(“The most efficient means of making quick and
standardized comparisons of the law is to apply the
categorical approach, which focuses on what a
conviction necessarily established.”).
Second, the categorical approach conserves
substantial time. The IJ need not grant multiple
adjournments while attempts are being made to obtain
old conviction records that may not even exist. See,
e.g., Sauceda A.R. at 13-14 (Resp’t’s Third Br. in
Support of Appeal, dated Dec. 12, 2013) (detailing
multiple attempts to obtain additional documents that
ultimately did not exist). IJs also need not spend time
examining the underlying factual record and trying to
resolve potentially competing interpretations of that
record because they only have to determine whether
the elements of the state statute under which the
noncitizen was convicted, as established by the
conviction records before the court, categorically match
the generic federal offense. Finally, there will be no
delay while waiting for the noncitizen to track down
former law enforcement officers to testify, gather dusty
police and laboratory reports, or shepherd expert
witnesses to challenge stale evidence.
Indeed, federal courts throughout the country
recognize that the categorical approach has “practical
advantages” because of the invariably attendant
“difficulties [of] ascertaining the nature of the conduct

20
underlying a prior conviction that could be decades
old.” United States v. Kroll, 918 F.3d 47, 53 (2d Cir.
2019); accord United States v. Martinez-Ortega, 482
F. App’x. 96, 101 (6th Cir. 2012). The categorical
approach is practical because it “promotes judicial and
administrative efficiency by precluding the relitigation
of past convictions in minitrials conducted long after
the fact.” Moncrieffe, 133 S. Ct. at 1690. In relieving
IJs of the “oppressive administrative burden of
scrutinizing the specific conduct giving rise to criminal
offenses,” the categorical approach not only promotes
efficiency, but also avoids the potential unfairness of
two different outcomes where two noncitizens have
each been convicted of the same offense. Michel v. INS,
206 F.3d 253, 264 (2d Cir. 2000).
Third, the categorical approach allows noncitizens
to “anticipate the immigration consequences of guilty
pleas in criminal court” and to enter “‘safe harbor’ pleas
which do not expose the immigrant to the risk of
immigration sanctions.” Jennifer L. Koh, The Whole
Better than the Sum: A Case for the Categorical
Approach to Determining the Immigration
Consequences of Crime, 26 GEO. IMMIGR. L. J. 257, 307
(2012) (noting that the categorical approach “corrects
for certain pervasive asymmetries facing noncitizens”);
accord Alina Das, The Immigration Penalties of
Criminal Convictions: Resurrecting Categorical
Analysis in Immigration Law, 86 N.Y.U. L. REV. 1669,
1730 (2011) (discussing noncitizens’ inability to
anticipate immigration consequences when there are
no limits on the factual inquiry). By requiring IJs to
“closely examine the required elements, limit
factfinding, and hold the government to a high burden

21
of establishing removability,” the robust categorical
approach “helps ameliorate the effects of the absence of
counsel” for unrepresented noncitizens. Koh, The
Whole Better than the Sum at 305.
In sum, the categorical approach is properly rooted
in Congress’ specification of conviction—a question of
law and not conduct, which is a question of fact—as the
trigger for immigration consequences and is, on
account of its straightforward application, well “suited
to the realities of the system.” Mellouli v. Lynch, 135
S. Ct. 1980, 1986 (2015). It is thus important that, in
deciding on the proper way to construe inconclusive
records of conviction under the categorical approach,
the path chosen does not aggravate “time-consuming
legal tangle[s].” Mathis, 136 S. Ct. at 2264 (Breyer J.,
dissenting).
B. Mr. Pereida’s Position Is Consistent
with the Categorical Approach and an
Administrable Means of Construing an
Inconclusive Conviction Record
Holding inconclusive records of conviction to be
insufficient to render noncitizens ineligible to seek
relief from removal is both (i) consistent with a strict
interpretation of the categorical approach and (ii) the
only administrable avenue given the enormous backlog
of pending immigration cases.
1. Mr. Pereida’s Position Is Consistent
with the Categorical Approach
The categorical approach is predicated on the
principle that an individual cannot be said to have been
“convicted” of a criminal offense listed in the INA

22
where ambiguities exist in the underlying criminal
conviction. The position that an inconclusive record
can never meet the categorical approach’s requirement
that the conviction be “necessarily” established is
consistent with that tenet. Under the categorical
approach, a conviction under a state statute whose
elements are not squarely within the bounds of the
corresponding generic federal offense cannot result in
removability or relief ineligibility. The categorical
approach rests on the notion that noncitizens should
not be deported without an opportunity to seek relief
when there is doubt as to whether they have been
convicted of an offense warranting deportation—
whether the issue is removability or relief ineligibility.
For that reason, the natural outcome of the categorical
approach—when it is not possible to identify the
precise subsection of a divisible, overbroad statute
under which a noncitizen was convicted—is that the
noncitizen was not “necessarily” convicted of a crime
that categorically matches a corresponding federal
offense. To posit otherwise, as the Government does,
turns the basic premise of the categorical approach on
its head.
2. Mr. Pereida’s Position Is an
Administrable Means of Construing
an Inconclusive Conviction Record
Since the Mylius decision more than a century ago,
judges have recognized the importance of “efficient
adjudication” in immigration courts. See, e.g., JeanLouis v. Att’y Gen. of U.S., 582 F.3d 462, 478-79 (3d
Cir. 2009); Gertsenshteyn v. U.S. Dep’t of Justice, 544
F.3d 137, 146 (2d Cir. 2008); Tokatly v. Ashcroft, 371

23
F.3d 613, 621 (9th Cir. 2004); see also Laura Jean
Eichten, A Felony, I Presume? 21 USC § 841(b)’s
Mitigating Provision and the Categorical Approach in
Immigration Proceedings, 79 U. CHI. L. REV. 1093,
1099-1101 (2012) (recognizing the significance of the
Mylius decision in the development of the categorical
approach and noting that the Mylius court emphasized
that the “interest of a uniform and efficient
administration of the law” was a rationale that
undergirded the categorical approach).
The categorical approach remains “far and away the
fairest, most consistent, and most administrable option
among alternatives.” Amit Jain & Phillip D. Warren,
An Ode to the Categorical Approach, 67 UCLA L. REV.
DISCOURSE 132, 135-36 (2019). This is because, by
focusing on a strictly legal analysis, IJs are relieved
“from the burden of engaging in individualized
factfinding,” which would require “hearings, including
witness testimony, and the submission and evaluation
of evidence.” Koh, The Whole Better than the Sum at
295.
The categorical approach also fosters the
“‘streamlined adjudication that a deportation hearing
is intended to provide’” and “serves uniformity
interests . . . which support[] efficiency.” Id. at 295-96
(citing In re Pichardo-Sufren, 21 I. & N. 330, 335 (BIA
1996)).8
8

One study confirmed the workability of the categorical approach by
examining recent federal court of appeals’ decisions. It found that
only “about twelve percent of court of appeals cases confronting the
divisibility question after Mathis have produced dissents.” Alexander
G. Peerman, Parsing Prior Convictions: Mathis v. United States and
the Means-Element Distinction, 118 COLUM. L. REV. 171, 193 (2017).
This “relatively high level of agreement among court of appeals judges

24
Mr. Pereida’s position is consistent with the
categorical approach and adoption of it will further
administrability. The Government’s position will not.
C. The Government’s Position Will Impede
Immigration Judges’ Application of the
Categorical Approach
The Government’s position that an inconclusive
conviction record should deprive a noncitizen of his or
her ability to show eligibility for relief will impede,
rather than facilitate, the task IJs face when applying
the categorical approach and its modified variant.
Three considerations are crucial in this regard.
First, the Government contends that the modified
categorical approach requires an IJ to use conviction
records to answer the initial question of “what
crime . . . a defendant was convicted of,” a question it
argues is governed by the “INA’s allocation of the
burden of proof.” Gov’t Cert. Br. 12. In so doing, the
Government imports a hallmark of a factual
inquiry—burdens of proof—into the modified
categorical approach’s legal inquiry that is
fundamentally at odds with the approach’s
administrable and uncomplicated comparison of state
and federal offenses. It is, in fact, wholly foreign to the
straightforward categorical approach IJs have
employed for decades.
Rather than permit IJs to swiftly move to relief
eligibility when the record is ambiguous, as a proper
in divisibility cases reveals that, in most cases, the Mathis tools
produce consistent and predictable results.” Id.

25
interpretation of the categorical approach would allow,
the Government’s position adds a detour by requiring
that IJs depart from the familiar modified categorical
approach and conduct a factual-type inquiry to
determine “what crime . . . a defendant was convicted
of.” Gov’t Cert. Br. 12. This analytical step will waste
the immigration courts’ time and resources by
burdening IJs with a factual inquiry more properly
handled by a criminal court.
That burden is
particularly onerous because of the pressure the
Government’s position would place on IJs undertaking
the divisibility analysis prescribed by Mathis. Under
the Government’s reading, IJs would need to parse
state cases and jury instructions to decide whether the
statute of conviction is divisible even when the
conviction record is inconclusive because the divisibility
question would determine whether the noncitizen is
eligible to seek relief. See Garcia-Morales v. Barr, __
F. App’x __ (10th Cir. 2019) [2019 WL 6258673]
(writing more than 5,000 words analyzing Idaho case
law and jury instructions). That extensive analysis is
unnecessary under the approach Mr. Pereida
advocates. See Marinelarena v. Barr, 930 F.3d 1039
(9th Cir. 2019) (assuming statutory divisibility and
holding that, even under the modified categorical
approach, an inconclusive conviction record is
insufficient to show a disqualifying offense).
Second, this Court’s decision in Padilla v. Kentucky,
559 U.S. 356 (2010), vividly illustrated the “multiple
entanglements of immigration and criminal law” that
have become increasingly evident in our immigration
system. Jennifer L. Koh, Crimmigration Beyond the
Headlines: The Board of Immigration Appeals’ Quiet

26
Expansion of the Meaning of Moral Turpitude, 71 STAN.
L. REV. ONLINE 267, 267 (2019). In upholding a
noncitizen’s right to be informed by counsel of the
immigration consequences a guilty plea might entail,
this Court recognized that deportation is “intimately
related to the criminal process,” even though “removal
proceedings are civil in nature.” Padilla, 559 U.S. at
365 (2010).
Adoption of the Government’s position would
further intertwine immigration proceedings and
criminal procedures because it calls for IJs who are not
necessarily specialists in criminal law to review
criminal records, analyze underlying facts that may be
inherently ambiguous, and apply factual inquiry
burdens of proof that should instead remain in the
domain in which they belong: criminal courts. This
additional entanglement would slow proceedings while
IJs await criminal records, assuming that they exist, to
determine the crime of conviction and whether the
requisite burdens of proof have been satisfied.
Third, conviction records come from a wide variety
of local and state jurisdictions across the country, and
vary in both form and content. Jurisdictions even
differ as to what records are created and how and what
records are maintained. A record from a court of
general criminal jurisdiction in a major metropolitan
area will likely differ in many respects from a record
from a court of limited jurisdiction in a rural area. The
records may also simply consist of mere handwritten
scribbles. Under the Government’s approach, IJs
would have to determine whether these records exist
and, if they do, scrutinize them, no matter their age or

27
content, not just to determine whether a conviction was
under a particular statutory subsection matching the
general federal offense, but also to answer the more
fine-grained threshold question of which crime the
noncitizen was convicted and based on what facts.
Compelling an IJ to reassess the crime at
issue—particularly when the underlying records will be
markedly different in both appearance and
informational detail, or when they are unavailable—is
a step beyond the expressly limited confines of the
categorical approach and its modified variant. Given
the volume of cases and resource constraints facing IJs,
this time could be better spent moving quickly to the
discretionary phase of proceedings where appropriate
case-by-case determinations can be made, and then
moving on to the next case.
Based on these considerations, this Court should
not permit the Government to dilute the benefits that
a strict interpretation of the categorical approach
confers on the immigration system. The Government
would weaken the categorical approach “in an attempt
to achieve ‘better’ outcomes” but, in so doing, “ignores
the context in which the categorical approach
operates.” Koh, The Whole Better than the Sum at 310.
By contrast, the solution that Mr. Pereida
champions is one that will serve the goals of the
immigration system. If this Court aims to maintain an
“equitable and efficient system,” then it must uphold
procedures that are “clear cut and easy to follow for
both the noncitizens and the immigration system
administrators.” Eichten, A Felony, I Presume?, 79
U. CHI. L. REV. 1093, 1136 (2012). Finding a noncitizen

28
eligible for relief where the conviction record is
inconclusive is such a procedure. Because this rule
neatly conforms to the underlying principles of the
longstanding categorical approach, it does not make the
“law more complicated than it needs to be . . . .” and
thus does not keep “noncitizen[s] . . . in limbo for longer
than necessary . . . while complicated legal issues are
repeatedly appealed.” Id.
Use of the categorical approach’s presumption is the
“only means of harmonizing” the “internally
incompatible and contradictory standard” under which
a noncitizen must prove that he or she was not
convicted of a disqualifying offense in order to seek
cancellation of removal.9
Application of the
presumption in this case is thus correct from both a
legal and policy perspective.
III.

The Government’s Interpretation of the
Modified Categorical Approach Would
Change Essential Functions of the
Immigration Courts

IJs are vested with certain discretionary powers,
including the discretion to grant or deny cancellation of
removal even where statutory eligibility is established.
Matter of C-V-T-, 22 I. & N. Dec. 7 (BIA 1998).
Congress entrusted this power to the Attorney General,
who in turn has directed IJs to administer it. 8 U.S.C.
§ 1101(b)(4) (defining IJ to mean “an attorney whom
9

Sarah M. Rich, Escaping Immigration Law’s Cancellation Catch:
Why an Inconclusive Record of Conviction Satisfies the
Preponderance of the Evidence Standard in Cancellation of
Removal, SSRN (July 18, 2013), http://dx.doi.org/10.2139/ssrn.229
5784.

29
the Attorney General appoints as an administrative
judge within the [EOIR], qualified to conduct specified
classes of proceedings, including [removal
proceedings]”). The Government’s interpretation of the
modified categorical approach would undermine IJs’
authority to exercise their discretion and drastically
change the way in which immigration courts operate.
It divorces the cancellation of removal procedures from
the spirit and purpose of immigration proceedings by
depriving IJs of their ability to exercise discretion in
situations where human complexity necessitates a
flexible balancing of the positive and negative aspects
of noncitizens’ situations. In addition, adoption of the
Government’s position would improperly and severely
disadvantage unrepresented noncitizens who might be
unable to address an ambiguous record and rebut that
they were convicted of a disqualifying crime.
A. The Government’s Interpretation Would
Deprive Immigration Judges of the
Authority to Exercise Discretion
IJs exercise discretion “according to [their] own
understanding and conscience.” United States ex rel.
Accardi v. Shaughnessy, 347 U.S. 260, 266–67 (1954);
see also 8 C.F.R. § 1003.10(b). This authority to
exercise discretion has been inextricably “woven into
the fabric of the [immigration court] system.” Daniel
Kanstroom, Surrounding the Hole in the Doughnut:
Discretion and Deference in U.S. Immigration Law, 71
TUL. L. REV. 703, 751-52 (1997). The immigration
process relies on IJs making discretionary
determinations of relief as “matter[s] of grace” based on
the personal narratives of each noncitizen. Jay v.

30
Boyd, 351 U.S. 345, 354 (1956); see also INS v. St. Cyr,
533 U.S. 289, 308 (2001). “Discretion is often needed to
enable [IJs] to respond creatively to the circumstances
of individual cases,” and, while IJs’ discretion is bound
and cannot be arbitrary, it “allows for the operation of
expertise and human sensitivity where standards or
stringent review might stifle such expression.”
Abraham D. Sofaer, Judicial Control of Informal
Discretionary Adjudication and Enforcement, 72
COLUM. L. REV. 1293, 1296 (1972).
IJs can only exercise discretion, however, if they can
conduct a full Merits Hearing. During the hearing, IJs
usually hear from witnesses and, by statute, assess the
credibility and significance of each piece of evidence to
decide what weight to give it. 8 U.S.C. § 1229a(c)(4)(C)
(IJs may consider “the totality of the circumstances”
and a wide range of other relevant factors). Moreover,
IJs frequently exercise their discretion to weigh the
severity of a noncitizen’s past criminal conduct against
the noncitizen’s complete personal narrative. See, e.g.,
Matter of C-V-T-, 22 I. & N. Dec. 7 (granting relief to
noncitizen with a single minor drug offense); see also
In re Sotelo-Sotelo, 23 I. & N. Dec. 201 (BIA 2001)
(denying cancellation of removal, despite the fact that
the noncitizen met the minimum statutory
requirements for relief, because the serious adverse
factor of his involvement in smuggling other
noncitizens outweighed the favorable factors).
To exercise their discretion properly, IJs must be
given the opportunity to hear from the applicants
during Merits Hearings and ask them questions. The

31
personal narratives of noncitizens seeking cancellation
of removal—including, but not limited to, their
recounting of their past transgressions—are an
important part of the Merits Hearings.
Thus,
noncitizens usually provide a full picture of their lives
in this country. Indeed, an honest recitation of the
noncitizen’s past difficulties is critical to an IJ’s ability
to determine credibility, character, and rehabilitation.
The Government, however, seeks to prematurely
terminate the IJs’ statutory authority to hear from the
noncitizen. According to the Government, should a
noncitizen be unable to accomplish the often-impossible
task of procuring evidence to prove that the conviction
was under the particular subsection of the divisible
criminal statute that does not necessarily encompass
the elements of a disqualifying crime, the Government
may then be able to pretermit the Merits Hearing. The
Government’s unforgiving reading of the categorical
approach penalizes the noncitizen for the lack of
records—a fault not within the noncitizen’s control—by
denying the noncitizen a right to be heard by the IJ.
The effect is particularly severe and punitive for
unrepresented and detained noncitizens seeking
cancellation of removal. Without the guidance of legal
counsel to help them navigate the already complex
immigration procedures, under the Government’s
interpretation, unrepresented noncitizens are
effectively being asked to possess a sophisticated
understanding of criminal law and the ability to seek
out and obtain old criminal records that may not exist
to determine whether their past state conviction is
equivalent to a disqualifying federal crime. Because of

32
its prejudicial effect on unrepresented noncitizens, the
Government’s interpretation is inconsistent with the
policy goals of immigration courts.
B. Eligibility for Cancellation of Removal
Has a Built-In Mechanism for
Immigration Judges to Reassess a
Noncitizen’s Criminal Conduct
Mr. Pereida’s interpretation is consistent with the
statutory intent and interpretative history of the
categorical approach, and it places the significance of
ambiguous criminal convictions properly within the
broader determination of eligibility for forms of relief
such as cancellation of removal. In order for a
noncitizen to be eligible for cancellation of removal, the
noncitizen, among other things, must be deemed to
have been a “person of good moral character.” 8 U.S.C.
§ 1229b(b)(1)(B). This is a discretionary determination
that IJs employ as a backstop to deny relief to those
noncitizens, who—although they may not have been
convicted of one of the disqualifying offenses—are
found to “lack [] remorse or rehabilitation” for their
past indiscretions. See, e.g., Perez v. Barr, 927 F.3d 17
(1st Cir. 2019). Thus, it does not follow that, because
an inconclusive record means that a conviction will not
be considered a disqualifying crime, the noncitizen will
not be deported. Rather, IJs can still use their
discretion, as Congress intended, to evaluate whether
the conviction and subsequent events should result in
the removal of the noncitizen.
The presumption also promotes judicial efficiency by
limiting the number of cases that will be taken up on
appeal. Appellate courts lack jurisdiction to review IJs’

33
discretionary decision granting or denying cancellation
of removal. 8 U.S.C. § 1252(a)(2)(B)(i); see also Perez v.
Barr, 927 F.3d at 20 (1st Cir. 2019) (internal quotations
and citations removed) (“We lack jurisdiction to review
any judgment regarding the granting of relief under 8
U.S.C. § 1229b.”). However, a noncitizen who is denied
the right to seek discretionary relief by the
Government’s interpretation of the modified categorical
approach may seek appellate review on due process
grounds. Id. (“although we may not review the
discretionary decision that an applicant does not merit
the requested relief, we retain jurisdiction with respect
to a denial of such relief to ‘review . . . constitutional
claims or questions of law raised upon a petition for
review’”) (quoting 8 U.S.C. § 1252(a)(2)(D)).
Accordingly, by denying noncitizens the right to even
reach the discretionary phase, the Government’s
interpretation may increase the number of appeals.

34
CONCLUSION
For the foregoing reasons, respectfully, the
judgment of the Eighth Circuit should be reversed.
Respectfully submitted.
David G. Keyko
Counsel of Record
Robert L. Sills
Matthew F. Putorti
Stephanie S. Gomez
Jihyun Park
PILLSBURY WINTHROP SHAW PITTMAN LLP
31 West 52nd Street
New York, NY 10019-6131
(212) 858-1604
david.keyko@pillsburylaw.com
Counsel for Amici Curiae

